No. A–__________

In the Supreme Court of the United States
Dr. Marcus Turner, Sr.,
Russell Moore, Jr., and
Beulah Community Improvement Corp.,
Applicants,
v.
Alva C. Hines, et al.,
Respondents.

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF CERTIORIARI

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the District of Columbia Circuit:
Under Supreme Court Rules 13.5, 22, and 30.3, Petitioners Dr. Marcus
Taylor, Russell Moore, and Beulah Community Improvement Corporation
(Applicants) respectfully request a 30-day extension to submit their petition for a
writ of certiorari to review the judgment of the District of Columbia Court of
Appeals. In support of this motion, Applicants state as follows:
1.

Timeliness. This is a timely application under Rule 13.5, which

requires this application to be filed at least 10 days before the deadline for filing the
petition for a writ of certiorari. This application was filed on May 31, 2019. The
current deadline for filing the petition is June 10, 2019. If this application is
granted, the new deadline for filing the petition would be July 10, 2019.

–1–

2.

Judgment Below. On January 16, 2019, the District of Columbia

Court of Appeals released its opinion in the captioned case. Exhibit A. Petitioners
submitted a timely petition for a rehearing or rehearing en banc. On March 12,
2019, the court denied the petition for rehearing or rehearing en banc. Exhibit B.
3.

Jurisdiction. This Court has jurisdiction to grant a petition for a writ

of certiorari under 28 U. S. C. § 1257(a). This case involves important First
Amendment rights that may be lost if this Court waits until after trial and
judgment is entered in the case below. Under these circumstances, this Court has
jurisdiction to issue a writ of certiorari even though the case is still pending below.
National Socialist Party of Am. v. Village of Skokie, 432 U. S. 43, 44 (1977).
4.

Respondents (plaintiffs below) purport to be members of a Baptist

church who are suing the church’s pastor, an elder of the church, and a community
development corporation established to advance the church’s mission, for violating
fiduciary duties allegedly owed to the church and its members. As this Court has
repeatedly held, the First Amendment guarantees churches the right “to decide for
themselves, free from state interference, matters of church government as well as
those of faith and doctrine.” Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in North Am., 344 U. S. 94, 116 (1952). See also Hosanna-Tabor
Evangelical Lutheran Church v. EEOC, 565 U. S. 171, 186 (2012); Serbian Eastern
Orthodox Diocese v. Milivojevich, 426 U. S. 696, 722 (1976). This First Amendment
right, frequently called the “ecclesiastical abstention doctrine” or the “church
autonomy doctrine,” requires courts to refrain from entertaining any claims that
rest on religious doctrine or implicate questions of church governance. E.g., Serbian
Eastern Orthodox Diocese, 426 U. S. at 708-09. As a consequence, the First
Amendment severely restricts the role that civil courts may play in resolving church
disputes. Id. at 709. See also Presbyterian Church in the United States v. Mary
Elizabeth Blue Hull Mem'l Presbyterian Church, 393 U. S. 440, 449 (1969).
–2–

5.

Where a lower court erroneously permits a case involving a church to

proceed, the trial itself offends the First Amendment and deprives the church and
its leaders of a valuable constitutional right. E.g., see, Swanson v. Roman Catholic
Bishop of Portland, 1997 ME 63, ¶ 6; 692 A. 2d 441, 443 (1997) (interlocutory appeal
allowed because if the First Amendment bars claims against religious institutions,
“the church is entitled to protection from the very process of litigation itself”);
Harris v. Matthews, 361 N. C. 265, 269–71, 643 S. E. 2d 566 (N.C. 2007) (First
Amendment ecclesiastical abstention doctrine is a substantial right and an order
erroneously denying motion to dismiss would work an irreparable injury if not
corrected before final judgment; citing Elrod v. Burns, 427 U. S. 347, 373 (1976)
(plurality)); St. Joseph Catholic Orphan Society v. Edwards, 449 S. W.3d 727, 737 n.
36 (Ky. 2014) (denial of ecclesiastical abstention is entitled to prompt appellate
review because it is a substantial claim of right that would be rendered moot by
litigation and is not subject to meaningful post-judgment review); United Methodist
Church v. White, 571 A. 2d 790, 792 (D.C. 1990) (First Amendment protects church
from judicial inquiry under certain circumstances and church is therefore entitled to
collateral order doctrine appeal). This Court has jurisdiction to grant certiorari to
prevent or remediate the deprivation of the First Amendment right. See National
Socialist Party, supra.
6.

This church’s First Amendment right to decide for itself, free from

state interference, matters of ecclesiastical doctrine and governance is a right
separable from and collateral to the merits. Cf. Id. (applying this rule to the First
Amendment right at issue in that case). The appellate court decision below is thus a
final judgment on the First Amendment issue over which this Court has jurisdiction
under 28 U. S. C. § 1257. Id. (citing Cohen v. Beneficial Loan Corp., 337 U. S. 541,
546 (1949)). See also Cox Broadcasting Corp. v. Cohn, 420 U. S. 469, 482–83 (1975)
(acknowledging this Court’s jurisdiction under § 1257 to review pending cases
–3–

where (1) reversal of the state court would preclude any further litigation and (2)
failure immediately to review the state court decision might seriously erode federal
policy).
7.

Just as this Court has § 1257 jurisdiction over double-jeopardy cases to

prevent the loss of a fundamental constitutional right that would otherwise be
forfeited or seriously damaged, this Court also has jurisdiction under § 1257 to
grant certiorari in this case to prevent the evanescence of the church’s First
Amendment rights. Compare Harris v. Washington, 404 U. S. 55 (1971)
(recognizing this Court’s jurisdiction under § 1257 over double jeopardy cases) and
Abney v. United States, 431 U. S. 651, 660 (citing Harris and reaffirming this
Court’s § 1257 jurisdiction over double-jeopardy cases) with National Socialist
Party, supra (citing Abney, supra, and Cox, supra, in support of this Court’s
jurisdiction over a pending case involving a dispositive First Amendment matter).
8.

Bases for Request. In the proceedings below, Applicants have been

represented by Joseph G. Cosby. Since March 12, 2019, Mr. Cosby has been
required to meet pressing deadlines in multiple lawsuits, to provide clients with
advice on time-sensitive matters concerning compliance with U.S. trade sanctions
on Iran and Russia, and to provide clients with advice on other urgent transactional
matters. Such matters have included, among other things:
a.

preparing a brief opposing a motion to dismiss and jury
instructions in a complex patent infringement case;

b.

preparing two briefs in an insurance coverage dispute;

c.

advising clients and preparing filings in multiple class action
lawsuits;

d.

preparing discovery responses in a separate matter;

e.

assisting in preparing a client’s application for an exemption
from U.S. tariffs on imports from China;
–4–

f.

researching and preparing a potential lawsuit to vindicate a
client whose property was wrongfully blocked for having
purportedly violated U.S. trade sanctions against Iran; and

g.

advising multiple clients about the impact of U.S. trade
sanctions on Iran and Russia on various international
transactions.

9.

As a result, Petitioners need an additional 30 days to complete and file

their petition for writ of certiorari.
10.

Mr. Cosby is not yet admitted to this Court. This motion has therefore

been signed by Joseph E. Richotte, a member of the bar of this Court who is one Mr.
Cosby’s colleagues and knows Mr. Cosby. Mr. Richotte is currently listed as lead
counsel, but Mr. Cosby will be designated as lead counsel once he is admitted to this
Court.
11.

This is Petitioners’ first request for an extension in the time to file a

petition for a writ of certiorari.
12.

Granting this motion will not result in any delay in this Court’s

consideration of the petition for a writ of certiorari, nor will it result in any delay of
the matter should the writ be granted.
13.

Corporate Disclosure. There is no parent or publicly held company

owning 10% or more of Beulah Community Improvement Corporation’s stock.

–5–

For these reasons, the Applicants respectfully request that the time within
which they may file a petition for a writ of certiorari be extended to and including
July 10, 2019.
Respectfully submitted,
Joseph E. Richotte
Counsel of Record
Joseph G. Cosby
BUTZEL LONG, P.C.
1909 K Street, N.W.,
Suite 500
Washington, D.C. 20006
(202) 454-2800
cosby@butzel.com

BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, Michigan 48304
(248) 258-1616
richotte@butzel.com

Counsel for Applicants
Dr. Marcus Turner, Sr.,
Russell Moore, Jr., and
Beulah Community Improvement Corp.

May 31, 2019

–6–

